OFFICE OF INSPECTOR GENERAL

AUDIT OF COMMODITIES
FUNDED UNDER THE
PRESIDENT’S MALARIA
INITIATIVE IN KENYA

AUDIT REPORT NO. 4-615-12-011-P
JUNE 28, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General


June 28, 2012

MEMORANDUM

TO:                USAID/Kenya Mission Director, Erna Kerst

FROM:              Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:           Audit of Commodities Funded Under the President’s Malaria Initiative in Kenya
                   (Report No. 4-615-12-011-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The report includes 12 recommendations to strengthen USAID/Kenya’s implementation of the
President’s Malaria Initiative. With the information you provided in your response to the draft
report, we determined that management decisions have been reached on all 12
recommendations, and final action has been taken on Recommendations 2, 4, 5, 6, 7, 8, 9, and
10. Please also provide the Office of Audit Performance and Compliance Division with the
necessary documentation to achieve final action on Recommendations 1, 3, 11, and 12.
Recommendations 2, 4, 5, 6, 7, 8, 9, and 10 are closed upon report issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     USAID/Kenya Cannot Ensure Commodities Have Reached Intended
     Beneficiaries ......................................................................................................................... 5

     USAID/Kenya’s Management of One Award Was Inadequate............................................... 9

     USAID/Kenya Has Not Marked Drugs to Deter Theft........................................................... 13

     USAID/Kenya Misstated Annual Results ............................................................................. 14

     USAID/Kenya’s Branding and Marking Efforts Were Not Effective ...................................... 16

Evaluation of Management Comments.................................................................................. 17

Appendix I—Scope and Methodology ................................................................................... 19

Appendix II—Management Comments .................................................................................. 24

Appendix III—Summary of Weaknesses Identified in Health Facility Records on
Artemisinin-Based Combination Therapies .......................................................................... 28

Appendix IV—Comparison of Fiscal Year 2011 Targets for the Health Communication
and Marketing Project............................................................................................................. 29




Abbreviations

The following abbreviations appear in this report:

ACT             artemisinin-based combination therapies
ADS             Automated Directives System
AOR             agreement officer’s representative
JSI             John Snow Inc.
KEMSA           Kenya Medical Supplies Agency
MSH             Management Sciences for Health
PMI             President’s Malaria Initiative
PSI             Population Services International
RIG             Regional Inspector General
SUMMARY OF RESULTS
According to Kenya’s National Malaria Strategy 2009-2017 (published in July 2009), malaria is
responsible for 30 percent of outpatient visits, 19 percent of hospital admissions, and 3 to
5 percent of inpatient deaths at the country’s health facilities. To reduce the costs of this
disease, the Government of Kenya has made malaria control a priority investment, with the goal
of reducing malaria-related deaths by two-thirds between 2007/2008 and 2017. To support this
goal, USAID/Kenya, through the President’s Malaria Initiative (PMI), funds four key interventions
targeted at the prevention and treatment of malaria: indoor residual spraying with insecticides
to kill mosquitoes that spread malaria, providing intermittent preventive treatment for pregnant
women, buying and distributing insecticide-treated bed nets (nets), and buying and distributing
artemisinin-based combination therapies (ACTs) to treat properly diagnosed malaria. The
mission also supports the Kenyan Government in areas such as epidemic surveillance and
response, case management, and behavior change interventions—for example, persuading
people to sleep under bed nets nightly to prevent malaria. Other donors to malaria activities in
Kenya include the Global Fund to Fight AIDS, Tuberculosis and Malaria (the Global Fund); the
United Kingdom’s Department for International Development; and the World Bank.

In its fiscal year 2010 budget (for the implementation of fiscal year 2011 activities),
USAID/Kenya allocated $40 million for malaria activities, of which $23.9 million was designated
for the purchase of commodities. Specifically, $12.5 million was budgeted for the purchase of
nets and $8 million for ACTs. The remaining amount was for indoor residual spraying supplies,
test kits for the rapid diagnosis of malaria, and microscopes to diagnose malaria in laboratories.

Nets. With the money budgeted for fiscal year 2011 activities, USAID/Kenya procured
2.2 million nets through the John Snow Inc. (JSI) DELIVER PROJECT. These nets were
delivered to Population Services International (PSI), which coordinated distribution to the
intended beneficiaries. (PSI distributes nets as implementer of the Health Communication and
Marketing Project under a $51.4 million, 5-year cooperative agreement signed with USAID on
April 1, 2007. The project is part of the AIDS, Population and Health Integrated Assistance
Program II.) PSI delivered 377,000 nets to Kenyan health facilities for distribution to pregnant
women and those with children under the age of 1 and another 2.6 million nets (some procured
in fiscal year 2010) to designated health facilities for mass distribution in districts prone to
malaria epidemics. These mass distributions were intended to achieve universal coverage,
defined by the 2009-2017 National Malaria Strategy as one net for every two people at risk for
malaria.

ACTs. With fiscal year 2011 funds, USAID/Kenya placed orders for 5.1 million ACTs through
the DELIVER PROJECT. As of the end of the fiscal year, 3.6 million of these ACTs had been
delivered to the Kenya Medical Supplies Agency (KEMSA), which then delivered 3.3 million of
them to Kenyan health facilities for free distribution to malaria patients. By December 31, 2011,
an additional 246,000 treatments had arrived in Kenya and been distributed to health facilities.

The ACT distribution process is depicted on the next page, with solid lines indicating the
movement of commodities and the broken lines indicating the flow of information. In general,
the information that the entities share is used in determining when and how ACTs should be
distributed throughout the country.



                                                                                                1
                                        Distribution of ACTs




               Source: MSH.

Beginning in fiscal year 2011, USAID also funded two programs with components designed to
strengthen the PMI commodities supply chain in Kenya. The $10.3 million, 2-year KEMSA
Support Program, implemented under a contract with Deloitte Consulting, was tasked with
improving KEMSA’s operations to ensure an effective, sustainable, and reliable supply chain.
The $25 million, 5-year Health Commodities and Services Management Program in Kenya,
implemented by Management Sciences for Health (MSH), was intended to strengthen
commodity management, pharmaceutical services and policy, and laboratory systems in
Kenya’s Ministries of Health.1 These programs have no direct responsibility to ensure that PMI-
funded commodities reach their intended beneficiaries.

The theft, loss, and misuse of malaria commodities are well-documented problems in Africa.
Investigations have revealed that ―millions of dollars of donated antimalarial drugs have been
stolen,‖2 and Office of Inspector General reports covering PMI activities in Angola, Benin,




1
  Kenya has both a Ministry of Medical Services and a Ministry of Public Health and Sanitation. The audit
refers to these ministries collectively as the Ministries of Health.
2
  Roger Bate, ―Partners in Crime: National Theft of Global Fund Medicines,” Africa Fighting Malaria
Briefing Paper, April 20, 2011.


                                                                                                       2
Malawi, and Nigeria have noted instances of missing commodities.3 Aware of these problems
and of perceived public sector corruption in Kenya,4 the Regional Inspector General/Pretoria
(RIG/Pretoria) conducted this audit to determine whether USAID/Kenya’s PMI-funded
commodities were reaching their intended beneficiaries.

The audit identified significant internal control weaknesses in the Kenyan health facilities visited.
As a result, the audit could not conclude to what extent selected PMI-funded commodities
reached their intended beneficiaries (page 5).

Additionally, the audit found that:

    USAID/Kenya’s management of PSI’s Health Communication and Marketing Project was
    inadequate (page 9). Besides losing an award file, the mission did not adequately review
    documentation submitted by PSI, undermining the purpose of performance monitoring.

    USAID/Kenya has not marked ACTs to deter theft (page 13). The mission explored marking
    these commodities but found it would add to their cost and limit its procurement flexibility.
    However, the unmarked treatments, packaged like drugs available in Kenyan shops, could
    not easily be identified or recovered if stolen.

    USAID/Kenya misstated its fiscal year 2011 results for malaria activities (page 14). Mission
    officials mistakenly used procurement records instead of distribution reports to compile
    results. As a result, USAID and PMI results were similarly misstated.

    Despite the mission’s desire for recognition, beneficiaries and even those involved in the
    distribution processes were generally unaware of the U.S. Government’s role in helping
    reduce malaria deaths, indicating that USAID/Kenya’s branding and marking efforts were
    not effective (page 16).

The report recommends that USAID/Kenya:

1. Coordinate with the Government of Kenya and issue an implementation letter under its
   development assistance grant agreement to (1) define the minimum standards acceptable
   for the treatment of and accounting for commodities funded by PMI and distributed through
   Kenyan systems, (2) confirm and record the Government of Kenya’s commitment as a
   partner in strengthening those systems, and (3) specify the rights and responsibilities of the
   parties if minimum standards are not adhered to (page 9).



3
  ―Audit of USAID/Angola’s Procurement and Distribution of Commodities Under the President’s Malaria
Initiative,” Report No. 4-654-10-001-P, December 21, 2009; ―Audit of USAID/Benin’s Implementation of
the President’s Malaria Initiative,‖ Report No. 7-680-11-004-P, February 14, 2011; ―Audit of
USAID/Malawi’s Implementation of the President’s Malaria Initiative,” Report No. 4-612-12-005-P,
January 25, 2012; and ―Audit of USAID/Nigeria’s Malaria Interventions,‖ Report No. 7-620-10-008-P,
July 7, 2010.
4
  Kenya scored 2.2 on Transparency International’s 2011 Corruption Perceptions Index, ranking 154th out
of 183 countries/territories (154th most corrupt). According to the organization’s Web site, the index
indicates the perceived level of public sector corruption on a scale of 0 to 10, and 0 means highly corrupt.
Perceptions are those of observers around the world, including experts in the evaluated countries.


                                                                                                          3
2. Remind mission staff members, in writing, of their responsibility to document the removal of
   any official award files from their designated storage location and to return those files when
   no longer needed (page 9).

3. Update its mission order on performance monitoring to give specific guidance on monitoring
   programs outside of one’s technical program team (page 10).

4. Remind agreement officer’s representatives (AORs), in writing, of their responsibility to
   review and approve programs’ annual work plans in accordance with the terms of each
   agreement (page 11).

5. Remind AORs, in writing, of their responsibility to monitor recipients’ performance reports in
   accordance with the terms of the agreement (page 11).

6. Remind agreement officers and AORs, in writing, of their responsibility to monitor recipients’
   financial reports to ensure that each recipient makes progress toward meeting the cost-
   sharing requirement (page 12).

7. Determine the allowability of $293,000 in ineligible questioned costs stemming from PSI’s
   reallocation of cost savings from net distribution activities, and recover from PSI any
   amounts determined to be unallowable (page 13).

8. Obtain a cost estimate for the additional marking of ACTs and determine, in conjunction with
   the Division of Malaria Control and KEMSA, whether marking these commodities would
   seriously deplete funding for or otherwise interfere with the effective treatment of malaria
   (page 14).

9. If the Division of Malaria Control and KEMSA agree, mark ACTs to deter theft (page 14).

10. Notify the U.S. State Department’s Office of U.S. Foreign Assistance Resources, in writing,
    of the misreported results for malaria-related commodity indicators in fiscal years 2010 and
    2011 (page 15).

11. Update the Office of Population and Health’s performance management plan to include the
    same indicators reported to the Office of U.S. Foreign Assistance Resources for PMI, and
    add the appropriate data sources (page 16).

12. Determine and document its objectives for identifying goods and services provided under
    Kenya’s PMI as American aid, and update its communication strategies, including current
    branding and marking plans, if they do not currently achieve those objectives (page 16).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of management
comments is on page 17.




                                                                                               4
AUDIT FINDINGS
USAID/Kenya Cannot Ensure
Commodities Have Reached
Intended Beneficiaries
In accordance with USAID Forward, a package of reforms that includes increased use of
partner-country systems, USAID/Kenya is using Kenyan systems to distribute PMI-funded
commodities to their intended beneficiaries. Nets are distributed to beneficiaries at health
facilities supported by the Ministries of Health (routine distribution) and through government-run
mass distributions (mass distributions); ACTs are distributed to patients at health facilities
supported by the Ministries of Health.

Each of these commodities is destined for a specific population, defined in conjunction with the
Division of Malaria Control. In fiscal year 2011, nets for routine distribution were intended for
pregnant women and those with children under 1 year old, and nets for mass distribution were
intended to achieve universal coverage in epidemic and endemic areas of Kenya. ACTs were
intended for patients at Kenyan health facilities.

The audit confirmed, with limited exceptions, that PSI delivered the nets procured by USAID to
health facilities as planned and that ACTs procured by USAID were delivered to the KEMSA
warehouse. However, while USAID officials expressed confidence that nets and ACTs had
reached their intended beneficiaries, the audit identified internal control weaknesses in the
Government of Kenya’s distribution systems that prevented verification. Those weaknesses are
described below.

Nets. The audit team visited 8 of the more than 1,600 health facilities that received PMI-funded
nets for routine distribution and 5 of the 115 health facilities that received PMI-funded nets for
mass distribution. The visits were to review records supporting the receipt of PMI-funded nets
from PSI and the storage and movement of those nets before distribution to their intended
beneficiaries (or their physical existence if not distributed).

Records reviewed by the audit team at six of the eight routine distribution locations (75 percent)
and four of the five mass distribution locations (80 percent) were adequate to support the
distribution of nets to USAID’s intended beneficiaries. However, one location was unable to
show the audit team an entry into inventory for 600 PMI-funded nets that they confirmed
receiving; another location had combined nets designated for different beneficiaries into a single
pool and had issued nets to facility employees without a documented reason; and a mass
distribution location had not required beneficiaries to sign a register to document that they had
received a net, reportedly because the process was taking too long.

ACTs. The audit team visited 23 of the 3,195 health facilities that received PMI-funded ACTs.
At each one, the team reviewed records supporting the receipt of PMI-funded ACTs from
KEMSA, the entry of those ACTs into the health facility’s inventory, and either the distribution of
those ACTs to their intended beneficiaries or their physical existence.

At 5 of the 23 facilities (22 percent), records were adequate to support the distribution of PMI-
funded ACTs to their intended beneficiaries. At the remaining 18 health facilities, records (like


                                                                                                 5
those that follow) were inadequate. Some facilities had multiple record-keeping inadequacies:
3 facilities could not fully support the receipt of one or more PMI-funded ACT deliveries from
KEMSA’s transporters, 14 could not support the entry of PMI-funded ACTs into a properly
controlled inventory system, and 6 could not support the distribution of PMI-funded ACTs to
their intended beneficiaries. Detailed findings from the 18 health facilities are in Appendix III.




         This ACT inventory record contains mathematical errors in the Receipt, Issue,
         and Balance columns and unexplained adjustments in the rows indicated by
         arrows. (Photo by RIG/Pretoria, January 2012)




                                                                                                6
On the top, KEMSA’s delivery note duplicate indicates that a health facility
employee signed for all commodities received in March 2011, yet on the
bottom, the health facility’s copy of the delivery note has been adjusted to
show that only 480 of 840 treatments were received. (Record scanned by
KEMSA officials, January 2012; photo by RIG/Pretoria, January 2012)


                                                                               7
Further, the prevalence in March 2011 of problems with inventory records could indicate
fraudulent activity. As noted above, 18 facilities the auditors visited could not support either the
proper receipt, storage, or distribution of PMI-funded ACTs. Of these 18, 14 received 19,470
PMI-funded ACTs during March 2011, 25.6 percent of which (4,980 treatments) could not be
accounted for. These missing treatments cost USAID an estimated $5,700.5 Auditors referred
the matter to Office of Inspector General investigators.

While the Kenyan health systems USAID used to distribute PMI commodities have been
designed to ensure accountability, the controls in place at health facilities are largely manual
and easily circumvented because, in many cases, health facility employees responsible for
commodity management have not been properly trained or are not adequately supervised.
Frequent staff turnover exacerbates these problems, as do competing priorities from the
Ministries of Health, resulting in decreased funds to the Division of Malaria Control.

Aware of the imperfections in the Kenyan health systems, USAID/Kenya has funded programs
to strengthen them (although these programs have not had direct responsibility to ensure that
PMI-funded commodities reach their intended beneficiaries). In prior years, USAID funded a
program that worked to strengthen pharmaceutical systems; currently the mission is funding
Deloitte Consulting to implement supply chain improvements at KEMSA and funding MSH to
support the Ministries of Health at all levels. However, the contract with Deloitte was not signed
until May 2011, and the agreement with MSH was not signed until April 2011, so these
programs have not yet had time to produce significant results.

Still, these programs are limited in their ability to strengthen Kenyan health systems unless all
levels of the Kenyan Government commit to doing so. Although there is a development
assistance grant agreement between the United States and Kenya, the language is very broad
and does not include details on specific activities. USAID/Kenya has not defined minimum
standards for the systems used to distribute PMI-funded commodities and has not asked the
Government of Kenya to enter into an agreement that names its ministries as partners in
strengthening those systems. Essentially, under the current structure, once ACTs are delivered
to KEMSA or nets are delivered to health facilities, USAID has no formal channels to influence
how those commodities are handled or accounted for. A jointly agreed-upon implementation
letter under the development assistance grant agreement could specify those responsibilities
and establish distribution standards to ensure that the purchase of PMI commodities in Kenya is
an effective use of U.S. taxpayer money.

Although data shows that malaria prevalence and malaria-related deaths are declining in Kenya,
the mission cannot be sure that USAID-funded commodities are reaching intended beneficiaries
because of internal control weaknesses in the Kenyan health systems used to distribute them.
Therefore, commodities may not be having the largest possible impact.

Since USAID/Kenya’s use of Kenyan systems is in line with the principles of USAID Forward
and steps are already being taken to strengthen these systems, the audit makes only the
following recommendation, to help ensure that the systems are reliable.



5
  Distribution records show that 979 facilities received 979,350 PMI-funded ACTs in March 2011. Since
facilities the audit team visited were selected judgmentally, not statistically, the team cannot project how
many of these treatments were missing or their value.


                                                                                                          8
    Recommendation 1.           We recommend that USAID/Kenya coordinate with the
    Government of Kenya and issue an implementation letter under its development
    assistance grant agreement to (1) define the minimum standards acceptable for the
    treatment of and accounting for commodities funded by the President’s Malaria Initiative
    and distributed through Kenyan systems, (2) confirm and record the Government of
    Kenya’s commitment as a partner in strengthening those systems, and (3) specify the
    rights and responsibilities of the parties if minimum standards are not adhered to.

USAID/Kenya’s Management of
One Award Was Inadequate
According to Automated Directives System (ADS) 202.3.7, a USAID mission and its
development objective teams ―are responsible for managing the resources made available to
them so that planned outputs and results are achieved in a cost-effective and timely manner, in
accordance with applicable regulatory requirements.‖ At USAID’s overseas missions, the
agreement officer and the AOR share primary responsibilities for managing ongoing assistance
agreements. The AOR is the person designated by the agreement officer to administer certain
aspects of an award to ensure that ―USAID exercises prudent management over its awarded
assistance and makes the achievement of program objectives easier by monitoring and
evaluating the recipient and its performance during the award‖ (ADS 303.2(f)).

However, the audit identified several areas in which the management of the PSI Health
Communication and Marketing Project’s malaria activities was inadequate.

USAID/Kenya Lost an Award File. ADS requires the retention of specific award and preaward
documents in an official award file. For example, under ADS 303.3.6.4, the review and
evaluation of responses to a program solicitation must be documented and retained in the
official award file. However, USAID officials could not locate one of two official award files for
the PSI program.6 Among other items, this missing file should have contained documents
supporting the selection of PSI as the winner of the award and decisions made by the mission
on the program budget. Because of the missing file, the agreement officer, who inherited
responsibility for the award from her predecessor, was unable to answer certain questions from
the audit team on how the award was structured.

While it is not evident what happened to the file, the locator card that the mission requires be
completed for the removal of files from the room where they are stored was not available. The
mission presumed that the missing file was removed before the policy requiring documentation
took effect on June 13, 2011. However, it is also unclear whether the mission’s policy has been
adequately communicated to new mission staff members, who therefore may not be following
the guidance. To prevent missing files in the future, the audit makes the following
recommendation.

    Recommendation 2.          We recommend that USAID/Kenya, in conjunction with
    USAID/East Africa, remind mission staff members, in writing, of their responsibility to
    document the removal of any official award files from their designated storage location
    and to return those files when no longer needed.

6
  Procurement functions for USAID/Kenya are handled by officials from USAID/East Africa who are
colocated at the mission.


                                                                                                9
Review of Planning Documents Was Incomplete. According to the terms of its agreement,
PSI should have submitted a performance monitoring plan for the program and an annual work
plan to USAID officials. The performance monitoring plan should have included the indicators
used to measure achievement and the method and time frame for data collection, while annual
work plans should have included the performance indicators and targets that PSI proposed to
utilize in the coming year.

The program submitted both of these documents to the AOR, and the AOR and PMI technical
team met with PSI officials to finalize the most recent annual work plan. However, both
documents lacked required elements:

    Only two of the seven malaria indicators in the program’s fiscal year 2011 work plan had
    been defined in the program’s performance monitoring plan.

    Of the seven malaria indicators in the annual work plan, PSI established performance
    targets for only five.

    For four of the five indicators whose performance targets were defined in the annual work
    plan, performance targets changed, some considerably, throughout the course of the year.

    Targets established in the annual work plan did not agree with targets set in the mission’s
    malaria operational plan. The various targets for these indicators are shown in Appendix IV.

A previous Office of Inspector General audit of USAID/Kenya’s HIV prevention activities noted a
similar problem.7 Auditors noted that quarterly reports for the Health Communication and
Marketing Project’s HIV prevention activities did not have performance targets and that certain
planning documents had not been completed. In response to that audit, the mission committed
to seeing that PSI regularly updates and modifies its plans in response to programmatic
changes.

Mission officials should have ensured that the performance monitoring plan and annual work
plan contained required elements. The AOR, whose area of expertise is HIV prevention,
indicated that she relied on the PMI technical team to advise her on the program’s malaria-
related activities. The PMI technical team, however, focuses on completion of the higher-level
malaria objectives in the mission’s operation plans and is not as familiar with the terms and
conditions of the PSI agreement.

The lack of understanding between USAID and PSI as to which malaria activities would be
reported on and what the targets would be for the corresponding indicators made it difficult for
USAID to assess PSI’s performance. It also created an environment where PSI was able to
change targets to match likely results, undermining the purpose of performance monitoring.
Because the program ended in April 2012, the audit makes only the following recommendations.

    Recommendation 3. We recommend that USAID/Kenya update its mission order on
    performance monitoring to give specific guidance on monitoring programs outside of
    one’s technical program team.


7
 ―Audit of USAID/Kenya’s PEPFAR-Funded Activities for the Prevention of Transmission of HIV,” Report
No. 7-615-10-010-P, July 29, 2010.


                                                                                                 10
   Recommendation 4. We recommend that USAID/Kenya remind agreement officer’s
   representatives, in writing, of their responsibility to review and approve programs’ annual
   work plans in accordance with the terms of each agreement.

Review of Performance Reports Was Incomplete. According to ADS 203.3.3.2(b), USAID
―should use performance information to assess progress in achieving results and to make
management decisions on improving performance.‖ To give the AOR the necessary information
to perform this assessment, according to the terms of the agreement, PSI must submit a report
to the AOR within 1 month after the end of the quarter. This report should include a comparison
of actual results with planned results and an explanation for any targets not met. The AOR then
has 30 days to review the report and provide feedback.

However, the AOR did not notice that PSI was reporting results on a calendar year basis under
fiscal year headings. For example, for the first quarter of fiscal year 2011 (ended December 31,
2010), PSI reported the routine distribution of 321,000 PMI nets, but for the second quarter
(ended March 31, 2011), the year-to-date total reflected only 19,000 nets because it was the
first quarter of the calendar year. At the end of fiscal year 2011 (September 30, 2011), PSI’s
quarterly reports showed that only 56,000 nets had been distributed routinely, yet distribution
records showed 377,000 nets had been distributed.

Further, the audit team asked why PSI had reached only 535,000 caregivers with community-
based behavior change interventions in fiscal year 2011, instead of the planned 687,500 (or
825,000 depending on the target used). PSI explained that the variance was because its
performance targets were set by calendar year, rather than fiscal year, so PSI officials believed
they had another quarter left to achieve planned results. However, contrary to the cooperative
agreement, PSI did not explain these variances in the report, and the AOR did not question
them.

The AOR said that she relied on the PMI technical team to advise her on the program’s malaria-
related activities. Yet the PMI technical team was not responsible for the day-to-day
management of the award, including reviews of quarterly reports.

PMI relies on accurate data to demonstrate progress toward goals. Inconsistencies in the
results reported by PSI could have led the mission to report inaccurate results for its malaria
activities and achievements in Kenya. (However, the mission did not use PSI’s performance
reports to derive annual results, as discussed on page 14.) Because the program ended in April
2012, the audit makes only the following recommendation.

   Recommendation 5. We recommend that USAID/Kenya remind agreement officer’s
   representatives, in writing, of their responsibility to monitor recipients’ performance
   reports in accordance with the terms of the agreement.

USAID/Kenya Officials Did Not Monitor Cost Sharing Adequately. Cost share refers to the
resources that an award recipient contributes to the total cost of an agreement. The cost share
should always support or contribute to the achievement of results. According to ADS 303.3.10,
―cost sharing becomes a condition of an award when it is part of the approved award budget,‖
and according to ADS 303.3.10.4, mission officials should ―monitor the recipient’s financial
reports to ensure that the recipient is making progress toward meeting the required cost
sharing.‖



                                                                                                 11
However, a December 2011 PSI financial report stated its cost-sharing requirement for this
program as $14.3 million, when the requirement had been increased to $15.6 million by an
August 2008 agreement modification. Although the AOR reported that she reviewed PSI’s
financial reports each quarter, she did not detect this discrepancy.

No reason was given for the oversight. If it had not been detected by the audit and if PSI had
failed to meet its full cost-sharing requirement by the end of the award, an additional $1.3 million
intended to further program objectives might not have been expended. To help avoid similar
oversights, the audit makes the following recommendation.

   Recommendation 6. We recommend that USAID/Kenya remind agreement officers
   and agreement officer’s representatives, in writing, of their responsibility to monitor
   recipients’ financial reports to ensure that each recipient makes progress toward meeting
   the cost-sharing requirement.

USAID/Kenya Officials Did Not Detect Unreasonable Costs. According to Office of
Management and Budget Circular No. A-122, Attachment A, paragraph A.2.a, to be allowable,
costs under a federal award must ―be reasonable for the performance of the award.‖ Paragraph
A.3 states, ―A cost is reasonable if, in its nature or amount, it does not exceed that which would
be incurred by a prudent person under the circumstances prevailing at the time the decision was
made to incur the costs.‖ In determining reasonableness, paragraph A.3.c states that
consideration should be given to whether individuals acted prudently considering their
responsibilities to a variety of interested parties, including ―clients, the public at large, and the
Federal Government.‖

In fiscal year 2011, actual net distribution costs were $293,000 below budget. Despite the
requirements of Circular A-122 to consider its responsibilities to its stakeholders, PSI did not
pass those savings along to the U.S. taxpayer or redirect them to additional malaria prevention
efforts benefiting the Kenyan people. Instead, PSI reallocated the cost savings to a common
cost category used to cover expenses such as rent, utilities, and office supplies that were
already adequately budgeted.

USAID/Kenya officials stated that they expect implementing partners to use obligated funds for
their intended purposes, unless partners inform them otherwise. In this case, PSI did not notify
the mission of the cost savings, and thus neither the agreement officer nor the AOR knew how
those savings were reallocated. However, mission officials also noted that they have not
exercised their right to limit the transfer of funds between direct cost categories. Instead,
USAID/Kenya let PSI determine how to allocate costs among USAID and other donors, and PSI
treated all donor funds as a single pool of resources—meaning it could shift resources as
needed to cover costs. (Because of the missing file discussed on page 9, the mission’s reason
for allowing this arrangement is not known.)

Given PSI’s responsibility to its Kenyan clients, the U.S. Government, and the public, using
$293,000 in cost savings to fund administrative expenses already budgeted for was not
reasonable under Circular A-122. Moreover, as a tax-exempt entity under Section 501(c)(3) of
the Internal Revenue Code, PSI should have been acutely aware of its responsibilities to U.S.
taxpayers. As a result, $293,000 in U.S. Government funds was wasted. Therefore, the audit
makes the following recommendation.




                                                                                                  12
   Recommendation 7. We recommend that USAID/Kenya determine the allowability of
   $293,000 in ineligible questioned costs stemming from Population Services
   International’s reallocation of cost savings from net distribution activities, and recover
   from Population Services International any amounts determined to be unallowable.

USAID/Kenya Has Not Marked
Drugs to Deter Theft
On the recommendation of the Kenya Ministry of Medical Services, commodities procured by
KEMSA are marked to the smallest applicable unit to deter theft; general practice is to mark the
commodities ―GoK [Government of Kenya] – MoH [Ministries of Health] – NOT FOR SALE.‖
KEMSA’s chief executive officer requested that USAID-funded commodities, including ACTs, be
similarly marked.

However, ACTs procured by JSI using PMI funds are not marked to deter theft. Besides the
batch number, there is little to distinguish PMI-funded ACTs from many ACTs commercially
available in Kenyan shops, as illustrated below.




On the left, PMI-funded ACTs are ready for distribution to patients at a Nyanza Province hospital.
On the right, ACTs are for sale in a Nyanza Province shop. (Photos by RIG/Pretoria, January 2012)

Although USAID/Kenya discussed the marking of ACTs procured for Kenya with JSI’s DELIVER
PROJECT, JSI officials were not receptive. These officials noted that marking would increase
the cost (although a cost estimate was not given) and limit the flexibility that the mission would
have in its procurement requests, since country-specific requirements hamper the
manufacturer’s ability to shift production schedules and split batches of ACTs. Based on this
discussion, USAID/Kenya did not pursue the matter further.

Since PMI-funded ACTs are not marked to deter theft, they are more susceptible to theft than
Global Fund-purchased drugs, which do sport ―GoK – MoH – NOT FOR SALE‖ markings (as
shown on the next page). Further, it is less likely that thefts of PMI-funded ACTs will be
detected, because Kenyan Government inspectors are trained to look for markings and do not
detect stolen ACTs using batch numbers.




                                                                                                13
On the left, ACTs purchased by the Global Fund are marked to deter theft, while on the right, PMI-
funded ACTs are not. (Photo by RIG/Pretoria, January 2012)

To ensure that USAID/Kenya appropriately considers KEMSA’s request to mark PMI-funded
ACTs to deter theft, the audit makes the following recommendations.

   Recommendation 8.         We recommend that USAID/Kenya, in conjunction with
   USAID/Washington, obtain a cost estimate for the additional marking of artemisinin-
   based combination therapies and determine, in conjunction with the Division of Malaria
   Control and the Kenya Medical Supplies Agency, whether marking these commodities
   would seriously deplete funding for or otherwise interfere with the effective treatment of
   malaria.

   Recommendation 9. We recommend that USAID/Kenya, if the Division of Malaria
   Control and the Kenya Medical Supplies Agency agree, mark artemisinin-based
   combination therapies to deter theft.

USAID/Kenya Misstated Annual Results
The Government Performance and Results Act of 1993 emphasizes accountability and
transparency in agency and program performance. To help meet these goals, all USAID
operating units, such as overseas missions, must report their results achieved during the fiscal
year to the State Department’s Office of U.S. Foreign Assistance Resources. This information
is used to help inform budget decisions, respond to congressional inquiries, prepare speeches
and testimonies, define best practices, and construct special reports.

As shown in the following table, USAID/Kenya reported exceeding targets for its four
commodity-related PMI indicators in fiscal year 2011. However, supporting documentation
revealed that far fewer ACTs and rapid diagnostic tests were distributed during the fiscal year,
fewer nets were purchased, and more nets were distributed.




                                                                                                14
           USAID/Kenya Fiscal Year 2011 Results on Malaria Commodity Indicators

                                                                           Reported         Actual
                       Indicator                            Target
                                                                            Result          Result
Number of ACTs purchased and distributed through U.S.
                                                           5.8 million    6.9 million     3.3 million*
Government support
Number of nets purchased with U.S. Government funds         2 million     2.7 million     2.2 million*
Number of nets distributed or sold with U.S. Government
                                                            2 million     2.7 million      3 million*
funds
Number of rapid diagnostic tests purchased and
                                                            500,000        547,000         292,040
distributed through U.S. Government support
*Audited

USAID/Kenya misreported results because officials who prepared and reviewed the report used
the wrong supporting documentation. According to mission officials, in some cases this mistake
occurred because the indicator definitions were easily misunderstood. For example, the
indicators measuring the purchase and distribution of ACTs and rapid diagnostic tests are
intended to reflect the number of ACTs and tests distributed to beneficiaries. These results
should have come from distribution reports generated by KEMSA, but instead were based on
the procurement requests accepted by JSI. Use of the procurement records was problematic
because significant portions of these commodities had not yet arrived in Kenya and were not
scheduled for distribution until fiscal year 2012. Similarly, the mission used procurement
records from JSI to report the number of nets distributed, although it should have used PSI
distribution records. In fiscal year 2011, PSI distributed nets purchased in fiscal year 2010, so
the mission understated this amount. Further, the mission included 455,000 nets that arrived in
September 2010 in its fiscal year 2011 results for the number of nets purchased, when these
should have been counted in fiscal year 2010.

Enabling some of these mistakes was the performance management plan created by the
mission’s Office of Population and Health, which incorrectly defined indicators and their data
sources. For example, the indicator Number of ACTs purchased and distributed through U.S.
Government support was improperly written in the plan as Number of ACTs purchased through
U.S. Government support, which has a different meaning. The indicator for the purchase and
distribution of rapid diagnostic tests was properly stated, but the plan incorrectly listed JSI as the
source for this information. JSI is only responsible for the procurement of commodities and
therefore does not have data that will show the number of tests distributed.

Because of these errors, USAID/Kenya’s results from fiscal years 2010 and 2011 were
misstated; if these errors are not corrected, the mission’s fiscal year 2012 results will be
misstated. Results reported by the Agency and the U.S. Government will be similarly affected.
As a result, those responsible for budgetary and programmatic decisions, like Congress, are
relying on inaccurate information. To ensure these results are corrected and to prevent future
reporting errors, the audit makes the following recommendations.

   Recommendation 10. We recommend that USAID/Kenya notify the Office of U.S.
   Foreign Assistance Resources, in writing, of the misreported results for malaria-related
   commodity indicators in fiscal years 2010 and 2011.




                                                                                                     15
   Recommendation 11. We recommend that USAID/Kenya update the Office of
   Population and Health’s performance management plan to include the same indicators
   reported to the Office of U.S. Foreign Assistance Resources for the President’s Malaria
   Initiative, and add the appropriate data sources.

USAID/Kenya’s Branding and
Marking Efforts Were Not Effective

Ensuring that the American people are recognized appropriately for their generosity in funding
U.S. foreign assistance has been a long-standing U.S. Government objective. For example,
Section 641 of USAID’s framework legislation, the Foreign Assistance Act of 1961, codified as
amended in 22 U.S.C. 2401, specifies that all programs under the act be identified appropriately
as ―American Aid.‖ More recently, the United States’ post-September 11 National Security
Strategy increased the need for U.S. foreign assistance activities to be identified clearly in
partner countries as provided by the United States. ADS 320, authorized by the above
legislation, guides the Agency’s branding and marking activities to help achieve these
objectives.

USAID/Kenya and its PMI implementing partners have complied with the ADS 320 requirement
that a branding and marking plan be implemented for each assistance activity. Nonetheless,
beneficiaries and even Kenyan health facility employees were mostly unaware that USAID was
funding a portion of the nets and ACTs distributed in their communities. Those interviewed
during the audit were largely unaware who paid for commodities, but when pressed said they
assumed that it was the Kenyan Government supplying them. Others believed that nets were
donated by PSI, the implementing partner funded by USAID for net distribution.

Because USAID/Kenya uses Kenyan systems to distribute PMI-funded commodities to
beneficiaries, the conventional USAID branding and marking practices were not effective. For
example, ACTs, which are not branded with the USAID logo, are distributed by employees at
government-funded facilities. The nets distributed via both routine and mass distributions are
branded, on their outer packaging, with the USAID logo. However, the outer packaging is
discarded soon after the beneficiary collects the net.

While cost and use of partner-country systems are important, a key objective of U.S. foreign
assistance activities is overseas recognition. Officials from USAID/Kenya echoed this, saying
that recognition for U.S. Government contributions in Kenya is critical. Because that recognition
is not currently being achieved, the audit makes the following recommendation.

   Recommendation 12. We recommend that USAID/Kenya determine and document its
   objectives for identifying goods and services provided under Kenya’s President’s Malaria
   Initiative as American aid and update its communication strategies, including current
   branding and marking plans, if they do not currently achieve those objectives.




                                                                                              16
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report and in subsequent discussions, USAID/Kenya agreed with all
12 recommendations. Management decisions have been reached on all 12 recommendations,
and final action has been taken on 8 of them. Our detailed evaluation of management comments
follows.

Recommendation 1. USAID/Kenya agreed to develop an implementation letter under its
development assistance grant agreement to address the issues identified. The target date for
completion of this action is December 31, 2012. Therefore, a management decision has been
made on this recommendation.

Recommendation 2. On May 31, 2012, USAID/Kenya issued a reminder to mission staff on
the policies for removing official files from and returning them to the designated storage areas.
As a result, a management decision has been reached, and final action has been taken on
Recommendation 2.

Recommendation 3. USAID/Kenya agreed to update its mission order on performance
monitoring to give specific guidance on monitoring programs outside of one’s technical program
team. The target date for completion of this action is December 31, 2012. Therefore, a
management decision has been made on this recommendation.

Recommendation 4. On June 5, 2012, USAID/Kenya issued a reminder to AORs of their
responsibility to review and approve programs’ annual work plans in accordance with the terms
of each agreement. As a result, a management decision has been reached, and final action has
been taken on Recommendation 4.

Recommendation 5. On June 5, 2012, USAID/Kenya issued a reminder to AORs of their
responsibility to monitor recipients’ performance reports in accordance with the terms of the
agreement. As a result, a management decision has been reached, and final action has been
taken on Recommendation 5.

Recommendation 6. On June 5, 2012, USAID/Kenya issued a reminder to agreement officers
and AORs on their responsibility to monitor recipients’ financial reports to ensure that the
recipient makes progress toward meeting required cost-sharing requirements. As a result, a
management decision has been reached, and final action has been taken on
Recommendation 6.

Recommendation 7. The USAID/Kenya agreement officer determined that $293,000 in
questioned ineligible costs were allowable, on the basis of new information provided by the
implementing partner. Therefore, a management decision has been reached, and final action
has been taken on Recommendation 7.

Recommendations 8 and 9. USAID/Kenya agreed with the recommendations and confirmed
that USAID/Washington has reached an agreement with the Agency’s supplier to mark future



                                                                                              17
ACTs as not for sale. Therefore, a management decision has been reached, and final action
has been taken on Recommendations 8 and 9.

Recommendation 10. On June 12, 2012, USAID/Kenya notified the Office of U.S. Foreign
Assistance Resources of the corrections to its fiscal years 2010 and 2011 indicators for malaria
commodities. As a result, a management decision has been reached, and final action has been
taken on Recommendation 10.

Recommendation 11. USAID/Kenya has agreed to standardize and update PMI indicator
definitions, data collection methods, and data sources to match the indicators reported to the
Office of U.S. Foreign Assistance Resources. The mission has contracted with an independent
team for this exercise and set a target completion date of December 31, 2012. Therefore, a
management decision has been made on this recommendation.

Recommendation 12. USAID/Kenya agreed to document its specific objectives for branding
and marking and update its communication strategies, including those documented in the
mission’s branding and marking plans, as needed. The target date for completion of this action
is December 31, 2012. Therefore, a management decision has been made on this
recommendation.




                                                                                             18
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of the audit was to determine whether USAID/Kenya’s PMI-funded commodities
were reaching their intended beneficiaries. Audit fieldwork was conducted from January 17 to
February 10, 2012.

In planning and performing the audit, we assessed USAID/Kenya’s internal controls. We
reviewed and inquired about the mission’s reporting for the Federal Managers’ Financial
Integrity Act of 1982,8 which provided detail on the mission’s administrative management,
financial management, programming, and general controls. We also obtained an understanding
of and evaluated the mission’s organizational structure and its processes for making awards,
monitoring and evaluating, and reporting. This included obtaining and reviewing documentation
to support program solicitation and procurement, the designation of the AORs, the completion of
data quality assessments, the performance of site visits, the documentation of meetings held
with implementing partners, the submission of periodic performance reports, and the scheduling
and completion of program evaluations.

We focused our audit on the procurement and distribution of nets and ACTs, as these
commodities made up 85 percent of the value of PMI-funded commodities that the mission
planned to procure in fiscal year 2011 ($20.5 million of $24 million). USAID/Kenya reports its
results for these activities through the following indicators: Number of ACTs purchased and
distributed through U.S. Government Support; Number of insecticide-treated nets purchased
with U.S. Government funds; and Number of insecticide-treated nets distributed or sold with
U.S. Government funds. Commodities procured by USAID/Kenya not included in the scope of
our audit are rapid diagnostic tests ($500,000), microscopes ($300,000), and supplies used for
indoor residual spraying ($2.7 million).

USAID/Kenya procures commodities through JSI’s DELIVER PROJECT. It also funds three
other programs that affect supply chains for ACTs and nets: PSI’s Health Communication and
Marketing Project, MSH’s Health Commodities and Services Management Program in Kenya,
and Deloitte Consulting’s KEMSA Support Program. The audit included a review of each of
these three programs. As of January 23, 2012, USAID had obligated $61.4 million and
disbursed $48.7 million to these three programs. Of these amounts, $8.7 million of the
obligations and $7.9 million of the disbursements came from funds designated for malaria
activities.

We conducted fieldwork in Nairobi, where we interviewed key personnel at USAID/Kenya,
implementing partners’ head offices, the Division of Malaria Control, and KEMSA. Implementing

8
    Public Law 97-255 codified in 31 U.S.C. 3512.


                                                                                            19
                                                                                               Appendix I


partners interviewed in Nairobi included officials from PSI, MSH, and Deloitte Consulting. We
also conducted site visits at the central PSI warehouse and the KEMSA distribution warehouse.
Officials from JSI located in the United States were interviewed via teleconference.

Kenya has more than 5,000 public health facilities spread across eight provinces. Because of
limited resources, it was not feasible for the audit team to visit all health facilities that would
have been selected in a statistical sample.9 Consequently, we designed our site visit
procedures to include the Kenyan provinces that reported the highest prevalence of malaria and
therefore received the highest quantities of PMI-funded commodities. These included Western,
Nyanza, and portions of Coast Provinces. In each province, we judgmentally selected facilities
according to the quantity of commodities KEMSA reported delivering since the start of fiscal
year 2011 and the size of the facility (recorded in the table on the following page). Substitutions
were made for facilities that the audit team learned were located in insecure areas.




9
 For example, to test a statistical sample of the 3,195 facilities that received PMI-funded ACTs (with a
90 percent confidence level, 5 percent error rate, and 4 percent variation rate), the audit team would have
needed to visit 49 randomly selected facilities, which might have required extensive travel throughout
Kenya and might have included sites that could not be visited because of security restrictions.


                                                                                                        20
                                                                                                    Appendix I


                                              Facilities Visited

                                                          ACT           Nets Received        Nets Received
    Province                Facility                  Treatments         for Routine           for Mass
                                                       Delivered         Distribution         Distribution
             Kisii Level V Hospital                       3,840                  0               21,960
             Entanda Dispensary                           2,760                  0               14,200
             Keumbu Subdistrict Hospital                  3,810                  0                 9,800
 Nyanza
             Nyando District Hospital                     1,200                  0                     0
             Bunde Dispensary                             2,760                  0                     0
             Bonde Dispensary                             2,760                  0                     0
             Mechimeru Health Centre                      2,940                720                     0
             Bungoma District Hospital                    4,020              2,520                     0
             Bumala ―A‖ Health Centre                     2,640                200                     0
 Western     Vihiga District Hospital                     8,310                600               44,440
             Sabatia Health Centre                        2,670              1,200               32,080
             Munoywa Dispensary*                          2,670                  0                     0
             Navakholo Subdistrict Hospital               4,140                280                     0
             Bokole Dispensary                            1,260                640                     0
             Holy Ghost Catholic Dispensary               1,830                  0                     0
             Moi Airport Dispensary                       1,170                  0                     0
             Kwale District Hospital                        690                  0                     0
             Msambweni District Hospital                  2,100              1,120                     0
  Coast
             Kinango District Hospital                    1,890                  0                     0
             Malindi District Hospital                    2,610                  0                     0
             Mariakani District Hospital                  2,280                  0                     0
             Fundi Issa Dispensary                        1,320                  0                     0
                                                                †
             Port Reitz District Hospital                   510                  0                     0
             Total                                       60,090              7,280              122,480
               ‡
Audit Universe                                        3,513,930            696,880            2,632,470
Audit Coverage (Percent)                                  1.7                  1                   4.7

* The audit team originally planned to visit Sivilie Dispensary, but visited Munoywa Dispensary instead
because of indications that this facility had experienced problems with the delivery of ACTs in March
2011.
†
  The audit team’s original plans did not include a visit to this facility, but because time permitted, the audit
team visited this facility to focus on deliveries of PMI-funded treatments made in March 2011, which
totaled 510. In total, KEMSA reports that Port Reitz District Hospital received 1,290 PMI-funded
treatments.
‡
  The audit universe for ACTs covers the period October 1, 2010, through December 31, 2011; routine net
distributions cover January 2009 through November 2011; and mass net distributions cover October 2010
through September 2011.

Methodology
To answer the audit objective, we first reviewed applicable laws, best practices, and guidelines.
Specifically, we reviewed the Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 (Public Law 110-293);
and USAID’s ADS chapters (ADS 201, ―Planning‖; ADS 202, ―Achieving‖; ADS 203, ―Assessing
and Learning‖; ADS 302, ―USAID Direct Contracting‖; ADS 303, ―Grants and Cooperative
Agreements with Non-Governmental Organizations‖; and ADS 320, ―Branding and Marking‖).

                                                                                                              21
                                                                                          Appendix I


We then inquired about the value of PMI-funded commodities procured by USAID/Kenya and
selected ACTs and nets for review, based on the dollar amounts spent on these commodities.
We then worked with USAID/Kenya to identify the programs that affect the supply chains for
ACTs and nets.

At USAID/Kenya, we met with officials responsible for PMI commodities. As applicable, we
interviewed the team leaders, agreement officers, AORs, contracting officers, contracting
officer’s representatives, activity managers, and officials from the program, controller, and
regional legal offices. We conducted these meetings to assess mission personnel’s knowledge
and implementation of PMI and USAID guidance and requirements, and their general familiarity
with PMI activities. We reviewed documentation provided by USAID/Kenya, such as contract
and agreement documents, work plans, and performance reports, to determine the extent to
which planned results were being achieved. Testimonial evidence was evaluated in conjunction
with other interviews, available documentation, and site visits.

Nets. PSI’s Health Communication and Marketing Project was funded by USAID/Kenya for the
routine and mass distributions of nets. The program procured its nets from JSI’s DELIVER
PROJECT. In conjunction with documentation reviews, we met with officials from these
implementing partners to assess their knowledge and implementation of PMI and USAID
guidance and requirements.

To assess the net procurement process, we first obtained the fiscal year 2011 procurement
requests that indicated the quantity of nets ordered from JSI. We matched these records to
invoices and signed proof of delivery documents, indicating that nets had been received by PSI
in Kenya according to the specifications in the request. We also toured PSI’s Nairobi
warehouse to assess inventory procedures and storage conditions and compare inventory
records with nets on hand.

To assess the routine distribution of nets, we obtained a schedule of the nets distributed in fiscal
year 2011 from PSI. Then, at the facilities we visited, we attempted to review copies of the
signed delivery notes (which indicate that the facility received the nets from PSI), evidence that
the nets were entered into the facility’s inventory, and registers showing that the nets were
distributed to beneficiaries.

To assess the mass distribution of nets, we obtained a schedule of the nets distributed in fiscal
year 2011 from PSI. Then, at the facilities we visited, we attempted to review copies of the
signed delivery notes (which indicate that the facility received the nets from PSI), records
showing that the district distributed the nets from the facility to storage locations and distribution
sites, and registers and voucher stubs showing that the nets were distributed to beneficiaries.

We also interviewed health facility employees, officials from the Ministries of Health, and
community health workers to assess the distribution processes and net usage.

ACTs. USAID/Kenya procures ACTs through JSI’s DELIVER PROJECT. In conjunction with
documentation reviews, we conducted a teleconference with officials from this implementing
partner to assess their knowledge and implementation of PMI and USAID guidance and
requirements.

To assess the ACT procurement process, we first obtained the fiscal year 2011 procurement
requests that indicated the quantity of ACTs ordered from JSI. We attempted to match these
records to invoices and signed proof of delivery documents, indicating that ordered ACTs had

                                                                                                   22
                                                                                       Appendix I


been received by KEMSA. We toured KEMSA’s distribution warehouse to assess storage
conditions and compare inventory records with treatments on hand.

Additionally, though Deloitte Consulting does not have direct responsibility for the procurement
or distribution of ACTs with the KEMSA Support Program, USAID has contracted this partner to
strengthen KEMSA’s supply chain. Therefore, we also met with Deloitte Consulting officials to
assess their knowledge and implementation of PMI and USAID guidance and requirements.
We also interviewed KEMSA officials to assess the effectiveness of this program’s activities.

To assess the distribution of ACTs, we obtained from KEMSA a schedule of PMI-funded ACTs
distributed between October 1, 2010, and December 31, 2011. At the facilities we visited, we
attempted to review copies of the signed delivery notes (which indicate that the facility received
the ACTs), evidence that that ACTs were entered into the facilities’ inventory, and dispensing
books showing that the ACTs were dispensed to patients. We also assessed the facilities’
storage conditions and did physical counts of ACTs in stock, which we compared with inventory
records. We interviewed health facility employees and officials from the Ministries of Health to
assess the distribution process. We also visited two private pharmacies to inquire about ACT
prices and ensure that PMI-funded commodities were not for sale there.

Lastly, we met with officials from MSH’s Health Commodities and Services Management
Program in Kenya to assess their knowledge and implementation of PMI and USAID guidance
and requirements. This program is funded by USAID to address commodity management,
pharmaceutical services and policy, and laboratory systems in Kenya’s Ministries of Health. We
also interviewed officials with the Division of Malaria Control, KEMSA, and the Ministries of
Health, along with health facility employees, to assess the effectiveness of this program’s
activities.

Given the nature of the audit, no materiality thresholds were established. Additionally, since
programs and site visits were selected judgmentally, results cannot be projected to the
purchase and distribution of all PMI-funded commodities. Nonetheless, we believe evidence
gathered during fieldwork provided a reasonable basis for our findings and conclusions.




                                                                                               23
                                                                                           Appendix II



MANAGEMENT COMMENTS


DATE:          15 June 2012

FROM:          Erna Kerst, Mission Director, USAID/Kenya /s/

TO:            Christine M. Byrne

SUBJECT:       Audit of Commodities Funded Under the President’s Malaria Initiative (PMI)
               Kenya (Audit Report No. 4-615-12-XXX-P Month XX, 2012)

The USAID/Kenya Mission would like to thank the Regional Inspector General Office for
undertaking the audit on PMI commodities in Kenya whose objective was to "determine if PMI
procured commodities are reaching their intended beneficiaries". USAID/Kenya has been working
closely with the Government of Kenya to strengthen the health care system for improved service
delivery and the audit on PMI commodities and inputs provided will assist USAID/Kenya make
further improvements in the management of the program. However, we request that the following
section on page 3 "USAID/Kenya 's management of PSI's Health Communication and Marketing
Project was inadequate. In addition to losing an award file, the mission also failed to adequately
review documentation submitted by the implementing partner. This undermined the purpose of
performance monitoring and led to questioned costs (Page 9)." of the audit report be modified in line
with additional information provided in response to recommendation number seven on questioned
costs.

This memorandum also transmits USAID/Kenya's management comments on twelve
recommendations contained in the subject audit report in accordance with ADS 595.3.1.2.
USAID/Kenya has reached final action on eight of the twelve recommendations, and requests RIG/P
to close these recommendations upon issuance of the final audit report. In addition, USAID/Kenya
will take final action on the remaining six recommendations by December 31, 2012.

Recommendation 1: "We recommend that USAID/Kenya coordinate with the Government of
Kenya and issue a jointly agreed-upon implementation letter under its development assistance grant
agreement to (1) define and record the minimum standards acceptable for the treatment of and
accounting for commodities funded by the President's Malaria Initiative and distributed through
partner country systems; (2) confirm and record the Government of Kenya's commitment as a partner
in the strengthening of those systems; and (3) specify the rights and responsibilities of the parties if
minimum standards are not adhered to ."




                                                                                                     24
                                                                                             Appendix II


Management Response: Mission agrees with the recommendation. The USAID/Kenya Mission in
consultation with the Government of Kenya will develop an implementation letter under its
development assistance grant agreement which will address issues (1), (2) and (3) in the above
recommendation. The target date for completion of this action is December 31, 2012.

Recommendation 2: "We recommend that USAID/Kenya, in conjunction with USAID/East Africa,
remind mission staff, in writing, of their responsibility to document the removal of any official award
files from their designated storage location and to return those files when no longer needed."

Management Response: Mission agrees with the recommendation. On May 31, 2012 the Director,
Regional Acquisition and Assistance Office (RAAO), reminded RAAO staff on the policies of
removal and return of official files from and to the designated storage areas (Attachment 1a & 1b).
USAID/K has reached final action on this recommendation.

Recommendation 3: "We recommend that USAID/Kenya update its performance monitoring
mission order to give specific guidance on monitoring programs outside of one's technical program
team."

Management Response: Mission agrees with this recommendation. The Mission has updated
Performance and Monitoring mission order that gives guidance on monitoring programs outside one's
technical program team. With a target completion date of December 2012, the mission order is under
review and clearance by relevant office directors.

Recommendation 4: "We recommend that USAID/Kenya remind agreement officer's
representatives, in writing, of their responsibility to review and approve programs' annual work plans
in accordance with the terms of the agreement."

Recommendation 5: "We recommend that USAID/Kenya remind agreement officer's
representatives, in writing, of their responsibility to monitor recipients' performance reports in
accordance with the terms of the agreement."

Recommendation 6: "We recommend that USAID/Kenya remind agreement officers and agreement
officer's representatives, in writing, of their responsibility to monitor recipients' financial reports to
ensure that the recipient makes progress toward meeting the required cost sharing."

Management Response on Recommendations 4, 5, and 6: Mission agrees with these
recommendations. In the memo (Attachment 2a), dated May 29, 2012 the Director, Regional
Acquisition and Assistance Office (RAAO), has reminded:

1. Agreement officer's representatives (AORs) of their responsibility to review and approve
   programs' annual work plans in accordance with the terms of the agreement
2. AORs of their responsibility to monitor recipients' performance reports in accordance with the
   terms of the agreement, and




                                                                                                       25
                                                                                           Appendix II


3. The agreement officer's (AOs) and AORs of their responsibility to monitor recipients' financial
   reports to ensure that the recipient makes progress toward meeting required cost sharing. In
   addition, the AO has conducted three AOR/COR refresher workshops on monitoring financial
   reports from recipients (Attachment 2b, attendance sign sheets).

The RAAO office circulated the memo to the AOs and AORs via email on June 5, 2012 (Attachment
2c). USAID/Kenya has thus reached final action on recommendations 4, 5 and 6.

Recommendation 7: "We recommend that USAlD/Kenya determine the allowability of $293,000 in
ineligible questioned costs stemming from Population Services International's reallocation of cost
savings from net distribution activities, and recover from Population Services International any
amounts determined to be unallowable."

Management Response: USAlD/Kenya has determined that the $293,000 in ineligible questioned
costs is allowable. On May 29, 2012, the USAID Agreement Officer requested PSI to provide an
explanation showing the amount of any cost savings realized in the distribution of insecticide treated
nets in fiscal year 2011. PSI was also to explain how any resultant cost savings was reallocated. PST
responded on June 3, 2012 with a detailed explanation and expenditure breakdown of the actual costs
incurred in the distribution of insecticide treated nets for fiscal year 2011. After reviewing in detail
its actual expenditures, PSI reported that the actual costs for net distribution for FY 2011 totaled
$2,501,779, which was slightly higher than the $2,500,000 that had been initially budgeted for.
USAID recognizes that this information differs from the estimated amounts provided to the OIG
audit team during the review period.

Based on PSI's analysis of actual expenditures, the AO has determined that no cost savings was
realized in the distribution of nets in FY2011 and that the reported actual expenditures are allowable
and reasonable. USAID/Kenya has reached final action on this recommendation.

Recommendation 8: "We recommend that USAID/Kenya, in conjunction with USAID/Washington,
obtain a cost estimate for the additional marking of artemisinin-based combination therapy and
determine, in conjunction with the Division of Malaria Control and the Kenya Medical Supplies
Agency, if the marking of these commodities is cost or otherwise prohibitive to the effective
treatment of malaria."

Recommendation 9: "We recommend that USAID/Kenya, if agreed upon with the Division of
Malaria Control and the Kenya Medical Supplies Agency, mark artemisinin-based combination
therapy to deter theft."

Management Response on Recommendations 8 and 9: Mission agrees with these
recommendations. USAID Washington has agreed on how Novartis should mark coartem blisters
"Not for retail sale" in both English and French. The marking on blister packages is to be effected in
the near future. (See attachment 3, email communications with Novartis). USAID/Kenya has
reached final action on recommendations 8 and 9.




                                                                                                     26
                                                                                            Appendix II


Recommendation 10: "We recommend that USAID/Kenya notify the Office of U.S. Foreign
Assistance Resources, in writing, of the misreported results for malaria-related commodities
indicators in fiscal years 2010 and 2011."

Management Response: Mission agrees with the recommendation. Mission has corrected the
malaria indicators reported for fiscal years 2010 and 2011, and notified the Office of U.S. Foreign
Assistance Resources of the corrections via memo dated June 5, 2012 (Attachment 3a). Mission
forwarded the memo via email dated June 12, 2012, (Attachment 3b). USAID/Kenya has reached
final action on this recommendation.

Recommendation 11: "We recommend that USAID/Kenya update the Office of Population and
Health's performance management plan to reflect the same indicators reported to the Office of U.S.
Foreign Assistance Resources for the President's Malaria Initiative, and add the appropriate data
sources."

Management Response: The Mission agrees with the recommendation. The Mission has contracted
a team of independent Performance Management Plan/Monitoring and Evaluation (PMP/M&E)
strategy/ Data Quality Audit (DQA) experts to review and update all the Office of Population and
Health's required performance indicators on the PMP. This will include a review and update of all
PMI indicators to standardize the indicator definitions, data collection methods and their respective
data sources to reflect the same indicators reported to the Office of U.S. Foreign Assistance
Resources for the President's Malaria Initiative. The DQA expert will further conduct a
comprehensive DQA on PMI indicators and report on all data quality limitations for corrective action
by the mission. This process will ensure that in future all data reported to the Office of U.S. Foreign
Assistance Resources for PMI will be complete, reliable and valid. The target date for completion of
this action is December 31, 2012.

Recommendation 12: "We recommend that USAID/Kenya determine and document, in writing, its
specific objectives for identifying activities within Kenya's President's Malaria Initiative portfolio as
American Aid and update its communication strategies, including current branding and marking
plans, if they do not currently achieve those objectives."

Management Response: The Mission agrees with this recommendation. As the audit report points
out on page 16, USAID/Kenya and its PMI implementing partners have complied with the ADS 320
requirement that a branding and marking plan be developed and implemented for each assistance
activity. Nonetheless, beneficiaries, and even Kenyan health facility employees, were mostly
unaware that USAID was funding a portion of the nets and ACT treatments distributed in their
communities. To address this issue, the mission will document the Missions specific objectives for
branding and marking and appropriately update the communication strategies. Should the current
branding and marking plans for PMI implementing partners not meet these objectives, USAID/Kenya
will update the branding and marking plans. The target date for completion of this action is
December 31, 2012.

Summary: USAID/Kenya has reached final action on recommendations 2,4,5,6,7,8,9 and 10 and
reached management decisions on recommendations 1,3,11 and 12.




                                                                                                      27
                                                                                            Appendix III


Summary of Weaknesses Identified in Health Facility Records on
            Artemisinin-Based Combination Therapies
                                                     Inadequate         Inadequate         Inadequate
Province                   Facility                   Receiving          Inventory         Dispensing
                                                       Records            Records            Records
                                                                                1,2
            Kisii Level V Hospital                                          X
                                                                                1,2
            Entanda Dispensary                                              X
Nyanza                                                                                               3
            Nyando District Hospital                                                            X
                                                                                 4
            Bunde Dispensary                                                 X
                                                                                 1
            Mechimeru Health Centre                                          X
                                                                                                     5
            Bungoma District Hospital                                                           X
                                                                                 2
            Bumala ―A‖ Health Centre                                         X
                                                                                4,6
Western     Vihiga District Hospital                                        X
                                                              7
            Sabatia Health Centre                         X
                                                              7                  1
            Munoywa Dispensary                            X                  X
                                                                                 6
            Navakholo Subdistrict Hospital                                   X
                                                                                 1                   3
            Holy Ghost Catholic Dispensary                                   X                  X
                                                                                2,6
            Kwale District Hospital                                         X
                                                                                1,2                  8
            Msambweni District Hospital                                     X                   X
                                                                                1,2
Coast       Kinango District Hospital                                       X
                                                                                                     3
            Malindi District Hospital                                                           X
                                                              7                 1,2
            Mariakani District Hospital                   X                 X
                                                                                 2                   8
            Fundi Issa Dispensary                                            X                  X

   1
     Facility could not locate current or past inventory records, or those records did not reflect
   accurate entries into inventory for deliveries that had been received.
   2
     Facility’s inventory records did not agree with physical counts performed by the audit team
   of ACTs in stock.
   3
     Facility did not have ACT dispensing records available for the audit team’s review.
   4
      Facility’s inventory records showed that ACTs had been given to nonpatients, and
   authorizing documentation was not kept.
   5
     We noted an error in the ACT dispensing record that made it appear as if more ACTs had
   been dispensed than actually were.
   6
     Facility’s inventory records showed that physical stock counts performed by the facility
   adjusted ACT stock levels up or down significantly, without adequate explanations for what
   had occurred.
   7
     Facility staff members had modified the quantities of ACTs received on their copy of a
   KEMSA delivery note after the delivery note was signed. Evidence that the health facilities
   had reported these discrepancies—either to KEMSA, health facility supervisors, or district
   supervisors—was missing.
   8
     Facility’s dispensing records indicated that multiple doses of ACTs had been dispensed to
   the same patient on the same date, an occurrence that either could not be explained or was
   explained by facility staff as a mistake.

                                                                                                         28
                                                                                       Appendix IV


                  Comparison of Fiscal Year 2011 Targets for the
                   Health Communication and Marketing Project
                        USAID/Kenya           PSI
                          Malaria        Performance    PSI Annual
      Indicator                                                            PSI Quarterly Reports
                         Operational      Monitoring    Work Plan
                            Plan             Plan
                                                                                    377,000
Number of nets for                                                                  338,000
                                          Undefined       377,000
routine distribution                                                                 56,000
                                                                                     56,000
                          2.5 million
                                                                                   1.5 million
Number of nets for                                                                 1.5 million
                                          Undefined      1.5 million
mass distribution                                                                  2.7 million
                                                                                   2.7 million
                                                                                   Undefined
                                                                          8 districts; 500 mobilizers;
Expand community-                                                             825,000 caregivers
based behavior          Not applicable    Undefined      Undefined        8 districts; 500 mobilizers;
change interventions                                                          687,500 caregivers
                                                                          8 districts; 500 mobilizers;
                                                                              687,500 caregivers
Facilitate                                                                         Undefined
development and                                                                    Undefined
                        Not applicable    Undefined      Undefined
production of health                                                               Undefined
provider materials                                                                 Undefined
                                                                           Complete by Quarter 4
Assist with mass                                                           Complete by Quarter 4
                                                        Complete by
distribution campaign   Not applicable    Undefined                        Complete by Quarter 4
                                                         Quarter 4
evaluation                                                                   Partially complete by
                                                                                Quarter 1, 2012
                                                                            Complete annual work
                                                                             plan in Quarter 1 and
                                                                           quarterly status reports
                                                          Complete          Complete annual work
Facilitate funding of                                   annual work          plan in Quarter 1 and
Division of Malaria                                        plan in         quarterly status reports
                        Not applicable    Undefined
Control’s annual work                                    Quarter 1 &        Complete annual work
plan                                                   quarterly status      plan in Quarter 1 and
                                                           reports         quarterly status reports
                                                                            Complete annual work
                                                                             plan in Quarter 1 and
                                                                           quarterly status reports
                                                                               Monthly meetings
                                                                               Monthly meetings
                                                                          Monthly meetings; train 3
                                                                               community-based
Facilitate Peace
                                                          Monthly           organizations; conduct
Corps behavior          Not applicable    Undefined
                                                          meetings              1,080 sessions
change interventions
                                                                          Monthly meetings; train 3
                                                                               community-based
                                                                            organizations; conduct
                                                                                1,080 sessions



                                                                                                   29
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
